      DEPARTMENT OF HEALTH & HUMAN SERVICES                             Office of Inspector General

                                                                        Washington, D.C. 20201




April 9, 2010

TO:             Charlene Frizzera
                Acting Administrator
                Centers for Medicare & Medicaid Services


FROM:           /Joseph E. Vengrin/
                Deputy Inspector General for Audit Services


SUBJECT:        Review of High-Dollar Payments for Outpatient Services Processed by Noridian
                Administrative Services, LLC, for the Period January 1, 2003, Through
                December 31, 2005 (A-07-10-04154)


Attached, for your information, is an advance copy of our final report on high-dollar payments
for outpatient services processed by Noridian Administrative Services, LLC (Noridian), for the
period January 1, 2003, through December 31, 2005. We will issue this report to Noridian
within 5 business days.

If you have any questions or comments about this report, please do not hesitate to call me, or
your staff may contact George M. Reeb, Assistant Inspector General for the Centers for
Medicare & Medicaid Audits, at (410) 786-7104 or through email at George.Reeb@oig.hhs.gov
or Patrick J. Cogley, Regional Inspector General for Audit Services, Region VII, at (816) 426-
3591 or through email at Patrick.Cogley@oig.hhs.gov. Please refer to report number A-07-10-
04154.



Attachment
     DEPARTMENT OF HEALTH & HUMAN SERVICES                                Office of Inspector General

                                                                          Office of Audit Services, Region VII
                                                                          601 East 12th Street, Room 284
                                                                          Kansas City, MO 64106

April 16, 2010

Report Number: A-07-10-04154

Mr. Jay Martinson
Executive Vice President, Chief Operating Officer
Noridian Administrative Services, LLC
900 42nd Street South
P.O. Box 6055
Fargo, ND 58103-2146

Dear Mr. Martinson:

Enclosed is the U.S. Department of Health & Human Services (HHS), Office of Inspector
General (OIG), final report entitled Review of High-Dollar Payments for Outpatient Services
Processed by Noridian Administrative Services, LLC, for the Period January 1, 2003, Through
December 31, 2005. We will forward a copy of this report to the HHS action official noted on
the following page for review and any action deemed necessary.

The HHS action official will make final determination as to actions taken on all matters reported.
We request that you respond to this official within 30 days from the date of this letter. Your
response should present any comments or additional information that you believe may have a
bearing on the final determination.

Section 8L of the Inspector General Act, 5 U.S.C. App., requires that OIG post its publicly
available reports on the OIG Web site. Accordingly, this report will be posted at
http://oig.hhs.gov.

If you have any questions or comments about this report, please do not hesitate to call me at
(816) 426-3591, or contact Debra Keasling, Audit Manager, at (816) 426-3213 or through email
at Debra.Keasling@oig.hhs.gov. Please refer to report number A-07-10-04154 in all
correspondence.

                                             Sincerely,


                                             /Patrick J. Cogley/
                                             Regional Inspector General
                                               for Audit Services


Enclosure
Page 2 – Mr. Jay Martinson


Direct Reply to HHS Action Official:

Ms. Nanette Foster Reilly
Consortium Administrator
Consortium for Financial Management & Fee for Service Operations
Centers for Medicare & Medicaid Services
601 East 12th Street, Room 235
Kansas City, MO 64106
   Department of Health & Human Services
              OFFICE OF
         INSPECTOR GENERAL


 REVIEW OF HIGH-DOLLAR PAYMENTS
FOR OUTPATIENT SERVICES PROCESSED
    BY NORIDIAN ADMINISTRATIVE
   SERVICES, LLC, FOR THE PERIOD
     JANUARY 1, 2003, THROUGH
        DECEMBER 31, 2005




                         Daniel R. Levinson
                          Inspector General

                             April 2010
                           A-07-10-04154
                        Office of Inspector General
                                          http://oig.hhs.gov



The mission of the Office of Inspector General (OIG), as mandated by Public Law 95-452, as amended, is
to protect the integrity of the Department of Health & Human Services (HHS) programs, as well as the
health and welfare of beneficiaries served by those programs. This statutory mission is carried out
through a nationwide network of audits, investigations, and inspections conducted by the following
operating components:

Office of Audit Services

The Office of Audit Services (OAS) provides auditing services for HHS, either by conducting audits with
its own audit resources or by overseeing audit work done by others. Audits examine the performance of
HHS programs and/or its grantees and contractors in carrying out their respective responsibilities and are
intended to provide independent assessments of HHS programs and operations. These assessments help
reduce waste, abuse, and mismanagement and promote economy and efficiency throughout HHS.

Office of Evaluation and Inspections
The Office of Evaluation and Inspections (OEI) conducts national evaluations to provide HHS, Congress,
and the public with timely, useful, and reliable information on significant issues. These evaluations focus
on preventing fraud, waste, or abuse and promoting economy, efficiency, and effectiveness of
departmental programs. To promote impact, OEI reports also present practical recommendations for
improving program operations.

Office of Investigations
The Office of Investigations (OI) conducts criminal, civil, and administrative investigations of fraud and
misconduct related to HHS programs, operations, and beneficiaries. With investigators working in all 50
States and the District of Columbia, OI utilizes its resources by actively coordinating with the Department
of Justice and other Federal, State, and local law enforcement authorities. The investigative efforts of OI
often lead to criminal convictions, administrative sanctions, and/or civil monetary penalties.

Office of Counsel to the Inspector General
The Office of Counsel to the Inspector General (OCIG) provides general legal services to OIG, rendering
advice and opinions on HHS programs and operations and providing all legal support for OIG’s internal
operations. OCIG represents OIG in all civil and administrative fraud and abuse cases involving HHS
programs, including False Claims Act, program exclusion, and civil monetary penalty cases. In
connection with these cases, OCIG also negotiates and monitors corporate integrity agreements. OCIG
renders advisory opinions, issues compliance program guidance, publishes fraud alerts, and provides
other guidance to the health care industry concerning the anti-kickback statute and other OIG enforcement
authorities.
                         Notices


    THIS REPORT IS AVAILABLE TO THE PUBLIC
              at http://oig.hhs.gov

 Section 8L of the Inspector General Act, 5 U.S.C. App., requires
 that OIG post its publicly available reports on the OIG Web site.

OFFICE OF AUDIT SERVICES FINDINGS AND OPINIONS

 The designation of financial or management practices as
 questionable, a recommendation for the disallowance of costs
 incurred or claimed, and any other conclusions and
 recommendations in this report represent the findings and
 opinions of OAS. Authorized officials of the HHS operating
 divisions will make final determination on these matters.
                                   EXECUTIVE SUMMARY

BACKGROUND

Pursuant to Title XVIII of the Social Security Act, the Medicare program provides health
insurance for people aged 65 and over and those who are disabled or have permanent kidney
disease. The Centers for Medicare & Medicaid Services (CMS), which administers the program,
contracts with fiscal intermediaries to process and pay Medicare Part B claims submitted by
hospital outpatient departments. The intermediaries use the Fiscal Intermediary Standard System
and CMS’s Common Working File (CWF) to process claims. The CWF can detect certain
improper payments during prepayment validation.

Medicare guidance requires hospitals to claim outpatient services using the appropriate Current
Procedural Terminology/Healthcare Common Procedure Coding System codes and to report
units of service as the number of times that a service or procedure was performed.

During our audit period (calendar years (CY) 2003 through 2005), Noridian Administrative
Services, LLC (Noridian), was the fiscal intermediary serving Medicare providers in 11 States.
Noridian processed approximately 30.2 million outpatient claims during this period, 104 of
which resulted in payments of $50,000 or more (high-dollar payments).

OBJECTIVE

Our objective was to determine whether high-dollar Medicare payments that Noridian made to
hospitals for outpatient services were appropriate.

SUMMARY OF FINDING

Of the 104 high-dollar payments that Noridian made to hospitals for outpatient services for
CYs 2003 through 2005, 27 were appropriate. The 77 remaining payments included
overpayments totaling $6,106,260. At the start of our audit, hospitals had refunded
overpayments totaling $3,934,036 but had not refunded overpayments totaling $2,172,224.

The hospitals attributed the incorrect payments to clerical errors or to billing systems that could
not prevent or detect the incorrect billing of units of service and other types of billing errors.
Noridian made these incorrect payments because neither the Fiscal Intermediary Standard
System nor the CWF had sufficient edits in place during CYs 2003 through 2005 to prevent or
detect the overpayments.

RECOMMENDATIONS

We recommend that Noridian:

      recover the $2,172,224 in identified overpayments and

      use the results of this audit in its provider education activities.


                                                   i
NORIDIAN ADMINISTRATIVE SERVICES, LLC, COMMENTS

In written comments on our draft report, Noridian concurred with our recommendations and
described corrective actions that it had taken or planned to take. Noridian’s comments are
included in their entirety as the Appendix.




                                              ii
                                                       TABLE OF CONTENTS
                                                                                                                         Page

INTRODUCTION........................................................................................................... 1

          BACKGROUND .....................................................................................................1
              Medicare Fiscal Intermediaries .......................................................1
              Claims for Outpatient Services ....................................................................1
              Noridian Administrative Services, LLC ......................................................1

          OBJECTIVE, SCOPE, AND METHODOLOGY ...................................................2
               Objective ......................................................................................................2
               Scope............................................................................................................2
               Methodology ................................................................................................2

FINDING AND RECOMMENDATIONS.......................................................................3

          FEDERAL REQUIREMENTS................................................................................3

          INAPPROPRIATE HIGH-DOLLAR PAYMENTS ...............................................3

          CAUSES OF INAPPROPRIATE HIGH-DOLLAR PAYMENTS .........................4

          FISCAL INTERMEDIARY PREPAYMENT EDIT ..............................................4

          RECOMMENDATIONS.........................................................................................4

          NORIDIAN ADMINISTRATIVE SERVICES, LLC, COMMENTS.....................4

APPENDIX

          NORIDIAN ADMINISTRATIVE SERVICES, LLC, COMMENTS




                                                                   iii
                                             INTRODUCTION

BACKGROUND

Pursuant to Title XVIII of the Social Security Act (the Act), the Medicare program provides
health insurance for people aged 65 and over and those who are disabled or have permanent
kidney disease. The Centers for Medicare & Medicaid Services (CMS) administers the
program.

Medicare Fiscal Intermediaries

CMS contracts with fiscal intermediaries to, among other things, process and pay Medicare
Part B claims submitted by hospital outpatient departments. 1 The intermediaries’
responsibilities include determining reimbursement amounts, conducting reviews and audits,
and safeguarding against fraud and abuse. Federal guidance provides that intermediaries must
maintain adequate internal controls over automatic data processing systems to prevent
increased program costs and erroneous or delayed payments. To process hospitals’ outpatient
claims, the intermediaries use the Fiscal Intermediary Standard System and CMS’s Common
Working File (CWF). The CWF can detect certain improper payments during prepayment
validation.

In calendar years (CY) 2003 through 2005, fiscal intermediaries processed and paid
approximately 409.4 million outpatient claims, 1,243 of which resulted in payments of
$50,000 or more (high-dollar payments).

Claims for Outpatient Services

Medicare guidance requires hospitals to submit accurate claims for outpatient services.
Hospitals should use the appropriate Current Procedural Terminology/Healthcare Common
Procedure Coding System (CPT/HCPCS) codes and report units of service as the number of
times that a service or procedure was performed. 2

Noridian Administrative Services, LLC

During our audit period (CYs 2003 through 2005), Noridian Administrative Services, LLC
(Noridian), was the fiscal intermediary serving Medicare providers in 11 States. 3 Noridian
processed approximately 30.2 million outpatient claims during this period, 104 of which resulted
in high-dollar payments totaling $8.3 million.


1
  The Medicare Prescription Drug, Improvement, and Modernization Act of 2003, P.L. No. 108-173 (MMA),
which became effective on October 1, 2005, amended certain sections of the Act, including section 1842(a), to
require that Medicare administrative contractors replace carriers and fiscal intermediaries by October 2011.
2
    CPT/HCPCS codes are used throughout the health care industry to standardize coding for medical procedures.
3
 Pursuant to the MMA, Noridian became a Medicare administrative contractor effective July 31, 2006, which
was after our audit period.


                                                          1
OBJECTIVE, SCOPE, AND METHODOLOGY

Objective

Our objective was to determine whether high-dollar Medicare payments that Noridian made
to hospitals for outpatient services were appropriate.

Scope

We reviewed the 104 high-dollar payments for outpatient claims that Noridian processed
during CYs 2003 through 2005. We limited our review of Noridian’s internal controls to
those applicable to the 104 high-dollar payments because our objective did not require an
understanding of all internal controls over the submission and processing of claims. Our
review allowed us to establish reasonable assurance of the authenticity and accuracy of the
data obtained from the National Claims History file, but we did not assess the completeness of
the file.

We conducted fieldwork from July 2007 through April 2009. Our fieldwork included
contacting Noridian, located in Fargo, North Dakota, and the hospitals that received the high-
dollar payments.

Methodology

To accomplish our objective, we:

   •    reviewed applicable Federal laws, regulations, and guidance;

   •    used CMS’s National Claims History file to identify outpatient claims with high-dollar
        Medicare payments;

   •    reviewed available CWF claim histories for the 104 claims with high-dollar payments
        to determine whether the claims had been canceled and superseded by revised claims
        and whether payments remained outstanding at the time of our fieldwork;

   •    contacted the hospitals that received the high-dollar payments to determine whether
        the information on the claims was correct and, if not, why the claims were incorrect;

   •    obtained documentation from the hospitals confirming all incorrect claims identified;
        and

   •    coordinated the calculation of overpayments and discussed the results of our review
        with Noridian.

We conducted this performance audit in accordance with generally accepted government
auditing standards. Those standards require that we plan and perform the audit to obtain



                                                2
sufficient, appropriate evidence to provide a reasonable basis for our findings and conclusions
based on our audit objectives. We believe that the evidence obtained provides a reasonable
basis for our finding and conclusions based on our audit objective.

                         FINDING AND RECOMMENDATIONS

Of the 104 high-dollar payments that Noridian made to hospitals for outpatient services for
CYs 2003 through 2005, 27 were appropriate. The 77 remaining payments included
overpayments totaling $6,106,260. At the start of our audit, hospitals had refunded
overpayments totaling $3,934,036 but had not refunded overpayments totaling $2,172,224.

The hospitals attributed the incorrect payments to clerical errors or to billing systems that
could not prevent or detect the incorrect billing of units of service and other types of billing
errors. Noridian made these incorrect payments because neither the Fiscal Intermediary
Standard System nor the CWF had sufficient edits in place during CYs 2003 through 2005 to
prevent or detect the overpayments.

FEDERAL REQUIREMENTS

Section 9343(g) of the Omnibus Budget Reconciliation Act of 1986, P.L. No. 99-509, requires
hospitals to report claims for outpatient services using HCPCS codes. CMS’s Medicare
Claims Processing Manual, Publication No. 100-04, chapter 4, section 20.4, states: “The
definition of service units … is the number of times the service or procedure being reported
was performed.” In addition, chapter 1, section 80.3.2.2, of this manual states: “In order to
be processed correctly and promptly, a bill must be completed accurately.”

Section 3700 of the Medicare Intermediary Manual states: “It is essential that you [the fiscal
intermediary] maintain adequate internal controls over Title XVIII [Medicare] automatic data
processing systems to preclude increased program costs and erroneous and/or delayed
payments.”

INAPPROPRIATE HIGH-DOLLAR PAYMENTS

Hospitals reported excessive units of service or made other billing errors on 34 claims,
resulting in overpayments totaling $2,172,224. The claims contained inaccurate data,
including incorrect procedure codes and incorrect numbers of billing units of service. The
following examples illustrate the billing errors:

      One hospital submitted four claims that incorrectly used the CPT/HCPCS codes for
       stereotactic radiosurgery instead of the correct codes for stereotactic radiotherapy.
       This error resulted in a total overpayment of $321,639.

      One hospital billed 145 units of service for CPT code 23410 LT (repair of rotator cuff)
       when it should have billed 1 unit, resulting in an overpayment of $129,087.




                                                 3
       One hospital billed 50 units of service for HCPCS code J3100 (Tenecteplase 50 mg)
        when it should have billed 1 unit, resulting in an overpayment of $114,969.

The hospitals attributed the incorrect claims to clerical errors or to billing systems that could
not prevent or detect the incorrect billing of units of service and other types of billing errors.

CAUSES OF INAPPROPRIATE HIGH-DOLLAR PAYMENTS

During CYs 2003 through 2005, Noridian made the incorrect payments because neither the
Fiscal Intermediary Standard System nor the CWF had sufficient edits in place to prevent or
detect the overpayments. In effect, CMS relied on hospitals to notify the fiscal intermediaries
of excessive payments and on beneficiaries to review their Medicare Summary Notice and
disclose any overpayments. 4

FISCAL INTERMEDIARY PREPAYMENT EDIT

On January 3, 2006, after our audit period, CMS required intermediaries to implement a
Fiscal Intermediary Standard System edit to suspend potentially excessive Medicare payments
for prepayment review. This edit suspends high-dollar outpatient claims and requires
intermediaries to determine the legitimacy of the claims.

RECOMMENDATIONS

We recommend that Noridian:

       recover the $2,172,224 in identified overpayments and

       use the results of this audit in its provider education activities.

NORIDIAN ADMINISTRATIVE SERVICES, LLC, COMMENTS

In written comments on our draft report, Noridian concurred with our recommendations and
described corrective actions that it had taken or planned to take. Noridian’s comments are
included in their entirety as the Appendix.




4
 The fiscal intermediary sends a Medicare Summary Notice to the beneficiary after the hospital files a claim for
Part B service(s). The notice explains the service(s) billed, the approved amount, the Medicare payment, and the
amount due from the beneficiary.


                                                         4
APPENDIX
APPENDIX: NORIDIAN ADMINISTRATIVE SERVICES, LLC, COMMENTS 





   ~                                                                                      Paul O'Donnell
   NOR/DIAN·
   Adminisrr8t1ve Services lie
                                                                                         Vice Presl<lent
                                                                                          Medicant Opomltions
                                                                                         900 42nd StrMt South
                                                                                         Fargo. ND 58103
                                                                                          70El71-2401
                                                                                          fAX: 701-:277·5150
                                                                                          poul.odonnellOnoridian.com
      February 22, 2010

      Patri ck J. Cogley 

      Office of Inspector General 

      Regio n VII 

      601 East 12th Slteet 

      Room 0429
      Kansas City, MO 64106

      RE: Repon Number A-07- 10-041 54

      Dear Mr. Cogley:

      Than k you fo r the opportunit y to respond 10 the draft report of the U.S. Department of Health & Human
      Services, Office of Inspector General (OIG) dated January 27, 20 10, entitled, Review of High-Dollar
      Paymems for Outpatient Strvices Processed by Noridian Administrative Services, LLC, fo r the Period
      January I, 2003, Through December 31,2005.

      We concur with the recommendation that all overpayments identified ought to be collected. Noridian
      Administrative Services, LLC. (NAS) has reviewed all claims identified as overpaymen ~ by this report.
      NAS has already colle cted these overpayments either by provider refund c hec k o r adj ust ment made by
      the provider.

      Additionally. as recommended, we will consider the results of this audit in the analysis of topics for
      provider education ac ti vity.

      Please adv ise if additional infonnation is needed or if funher clarification is needed on any of our
      responses.

      Sincerel y.

      lsi Puul O'Dunneli

      Paul O'Donnell
      Vice President
      Noridian Administrative Services, LLC
